HHS/OIG, Audit - "Review of Arkansas Department of Human Services'
Systems and Procedures for Recovering and Refunding Overpayments made Under the
Aid to Families with Dependent Children Program," (A-06-02-00028)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Arkansas Department of Human Services' Systems and Procedures
for Recovering and Refunding Overpayments made Under the Aid to Families with
Dependent Children Program," (A-06-02-00028)
July 16, 2002
Complete Text of Report is available in PDF format
(916 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that from July 1, 1997 through January 31, 2002
a total of $1.4 million ($1.0 million Federal Share) in AFDC overpayments had
been recovered by the Arkansas Department of Human Services (ADHS).  We
recommended that ADHS refund $1.0 million to the Administration for Children
and Families (ACF) in accordance with Federal requirements and that they refund
the Federal share of subsequent AFDC recoveries to ACF in the form of a check
at least quarterly.  The ADHS stated it has established internal procedures
for processing and submitting AFDC overpayment collections and that it will
be refunding the recommended $1.0 million in overpayments within 30 days and
any subsequent overpayment recoveries on a quarterly basis beginning in September
2002.